 DOE/IG-0566




          AUDIT               NATIONAL NUCLEAR SECURITY
                                ADMINISTRATION’S TEST
         REPORT                  READINESS PROGRAM




                                    SEPTEMBER 2002




 U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL
  OFFICE OF AUDIT SERVICES
                         U. S. DEPARTMENT OF ENERGY
                               Washington, DC 20585

                                  September 9, 2002



MEMORANDUM FOR THE SECRETARY


FROM:                   Gregory H. Friedman (Signed)
                        Inspector General

SUBJECT:                INFORMATION: Audit Report on "National Nuclear Security
                        Administration's Test Readiness Program"


BACKGROUND

Prior to 1992, the Department of Energy relied on underground testing at its Nevada Test Site to
ensure the safety, reliability, and performance of the Nation's nuclear weapons. When the United
States placed a moratorium on underground testing, the Department implemented a science-
based Stockpile Stewardship Program, designed to certify that the weapons are safe and, if
needed, will work as intended. This program is a key mission of the Department's National
Nuclear Security Administration (NNSA).

In accord with the applicable Presidential Decision Directive, the United States can resume
underground nuclear testing at the Nevada Test Site under certain circumstances. Such action
would require a Presidential order based, for example, on the identification of a new type of
weapon problem or an accumulation of uncertainties about the reliability of the nuclear
stockpile. The Presidential Decision Directive mandates that the Department be prepared, on a
contingency basis, to restart underground testing within a three-year window of such a decision.

We conducted this audit to determine if the Nevada Operations Office has the capability to
conduct an underground nuclear test within the required timeframe if called upon to do so.


RESULTS OF THE AUDIT

Based on our review of the current status of available human and physical resources, the
Department's ability to conduct an underground nuclear test within established parameters is at
risk. The Nevada Operations Office and its contractor organizations have lost nearly 50 percent
of their employees with testing experience in the last five years. And, a wide variety of
equipment that was used in testing has become obsolete, unserviceable, or is no longer supported
by the manufacturer. In addition, facilities that had once been dedicated to the testing program
have been converted to other uses, mothballed, or dismantled. While the NNSA has expressed
confidence that many of the aging assets could be reconstituted or replaced within the 36-month
readiness lead time, both Federal and contractor officials acknowledged that this probability,
absent significant new strategic investments, has decreased with the passage of time.
                                                        2


both Federal and contractor officials acknowledged that this probability, absent significant new strategic
investments, has decreased with the passage of time.

We noted that the Department did not have a comprehensive plan or methodology in place to address its
most significant test-related concerns. Specifically, plans were insufficient to fill key and critical positions;
validate aging assets; incorporate technology advances; and, update Nuclear Explosive Safety Studies.
Unless these challenges are addressed, the Department risks losing its ability to restart underground testing
on a timely basis, should the need arise. The audit report included a series of recommended actions
intended to help meet each of the identified challenges.

Subsequent to the conclusion of our audit fieldwork, the Nevada Operations Office issued the Enhanced
Test Readiness Cost Study. In its report, the review team concluded that the Department's ability to
maintain a test readiness posture of 24 to 36 months is "at risk" at the currently planned funding level of
$10 million per year. The review team's conclusion is consistent with the information we developed during
our audit.

The Office of Inspector General has identified Stockpile Stewardship as one of the most significant
challenges the Department and NNSA face. Several of our recent reports, including The Department of
Energy's Pit Production Project (DOE/IG-0551, April 2002) and Stockpile Surveillance Testing (DOE/IG-
0528, October 2001) emphasized the need for prompt action to address various factors with the potential to
affect the stockpile. In this context, our current findings regarding readiness at the Nevada Test Site echo
our earlier observations.


MANAGEMENT REACTION

NNSA generally agreed with the findings in our report regarding the status of test readiness but did not
agree with some of our specific recommendations. In some instances, management suggested alternative
approaches to achieving the overall goal. Management's comments are summarized beginning on page 11
and are included in their entirety as Appendix 1.


Attachment

cc: Chief of Staff
    Acting Administrator, National Nuclear Security Administration
    Manager, Nevada Operations Office
    Director, Policy and Internal Controls Management, NA-66
NATIONAL NUCLEAR SECURITY ADMINISTRATION’S TEST
READINESS PROGRAM

TABLE OF
CONTENTS



                Overview

                Introduction and Objective .......................................................... 1

                Conclusions and Observations .................................................. 1


                Maintaining Underground Nuclear Testing Capability

                Details of Finding ........................................................................ 2

                Recommendations and Comments ............................................ 6


                Appendices

                Management Comments .......................................................... 11

                Related Reports........................................................................ 14

                Scope and Methodology ........................................................... 15
Overview

INTRODUCTION AND   One of the Department of Energy's (Department) primary missions is to
OBJECTIVE          maintain the safety, reliability, and performance of the nuclear weapons
                   in the Nation's stockpile. A decade ago, these tasks were accomplished
                   by conducting underground nuclear weapons tests at the Nevada Test
                   Site. However, since the moratorium on testing in 1992, the
                   Department has met its mission requirements through the development
                   and implementation of the Stockpile Stewardship Program. This
                   program is the responsibility of the Department's National Nuclear
                   Security Administration (NNSA).

                   While NNSA does not currently conduct underground nuclear tests, a
                   Presidential Directive requires NNSA to maintain the capability to test
                   within a two to three-year timeframe if directed to do so by the
                   President. To maintain this state of readiness, the Nevada Operations
                   Office (Nevada) established a Test Readiness Program.

                   We conducted the audit to determine if Nevada has the capability to
                   conduct an underground nuclear test within the required timeframe.


CONCLUSIONS AND    Nevada's ability to conduct an underground nuclear test within the
OBSERVATIONS       specified timeframe is at risk. Specifically, key aspects of the
                   Department's testing process and infrastructure have experienced
                   significant degradations in the last decade, including:

                        •   A decline in the number of employees with testing experience;

                        •   The deterioration of necessary systems and equipment;

                        •   The inability to keep pace with new technology; and,

                        •   Delays in updating required safety studies.

                   The challenges posed by these issues were heightened because Nevada
                   did not have a comprehensive plan to address or overcome them. If the
                   Department becomes unable to certify that testing can resume within
                   the 24 to 36-month window, it could eventually lose its ability to ensure
                   weapons reliability through underground testing, should such testing
                   become necessary.




Page 1                                                      Introduction and Objective/
                                                         Conclusions and Observations
Maintaining Underground Nuclear Testing Capability

Underground Testing   Since the last underground nuclear detonations were conducted at the
                      Nevada Test Site, the Department has encountered a number of
                      significant changes. These changes, including a decline in the number
                      of employees with testing experience; the deterioration of necessary
                      systems and equipment; the inability to keep pace with new technology;
                      and a delay in conducting required safety studies, pose serious
                      challenges to the Department's ability to conduct an underground
                      nuclear test within the required timeframe.

                                          Personnel with Testing Expertise

                      Nevada and its support organizations have lost nearly 50 percent of
                      their underground nuclear test-experienced personnel in the last five
                      years. Furthermore, almost half of the remaining employees are
                      eligible to retire within the next five years, with the average age of
                      experienced staff members approaching 53 years. An analysis of
                      Nevada's 209 key and critical positions disclosed at least 36 positions
                      that existing personnel would be unable to fill. The jobs involved
                      include diagnostics engineers, arming and firing technologists, and
                      nuclear performance scientists. In addition, other general support and
                      craft personnel, not included on the key and critical list, would have to
                      be hired when needed. As the experienced personnel pool becomes
                      further reduced, the people qualified to fill various testing assignments
                      will decrease.

                      To mitigate the loss of critical personnel, Nevada conducted training,
                      created a "Retiree Corps," and established a mentoring program.
                      However, many key and critical personnel have not received test-
                      related training since the mid-1990s. Even among those who had been
                      trained, several shared the view with us that the training was not an
                      adequate substitution for experience gained through actual underground
                      tests. In addition, many of the retirees that volunteered to perform
                      mentoring duties for new employees, or to fill vacant test positions,
                      have not been involved with the Test Readiness Program since they
                      retired. Current documentation does not indicate what specific
                      qualifications each individual participating in the Retiree Corps has or
                      whether they are still capable of performing necessary duties. Finally,
                      the mentoring program was unable to attract enough participants for the
                      number of vacancies.




Page 2                                                                       Details of Finding
                              Physical Assets and Systems Upgrades

         Although Nevada asserts that inventoried physical assets are available
         to support a resumption in testing, a wide variety of the assets have
         become obsolete and unserviceable. For example, the Tektronix 750A,
         a diagnostic tool used in imaging hardware, is no longer supported by
         the manufacturer and Nevada does not have anyone capable of
         repairing it.

         In addition, facilities that had once been dedicated to the testing
         program have been converted to other uses, mothballed, or dismantled.
         For instance, the processing plant, which was used for processing
         stemming materials, has been mothballed since 1992. While NNSA has
         confidence that many of these aging assets could be reconstituted or
         replaced within a 36-month test readiness lead time, Nevada and its
         contractors acknowledge that the probability of that happening
         decreases with the passage of time. The photograph below shows
         pieces of equipment stored in a warehouse at the Nevada Test Site.




              S c o p e s a n d o t h e r e q u ip m e n t s h r in k - w r a p p e d a n d s t o r e d . M a n y
              h a v e n o t b e e n t e s t e d s in c e 1 9 9 2 .

         Nevada has also not kept pace with advances made in technology.
         Several of the computer systems that will be relied upon if testing
         resumes are no longer supported by their manufacturers. For instance,
         neither the VAX computers nor the HP9000 that were used to run
         software programs during testing are still supported. Additionally,
         some equipment and replacement parts for diagnostics devices are no
         longer made. For example, the cathode ray tubes used in oscilloscopes,
         camera chips used in imaging hardware, and photo diode tubes used for
         measuring high level signals, are no longer manufactured.


Page 3                                                                                Details of Finding
                     Future testing will likely utilize a modified set of diagnostics equipment
                     based on the latest technology. However, off-the-shelf computers,
                     operating systems, and power supplies would need to be tested to assure
                     compatibility with the "downhole" nuclear testing environment.
                     According to computer programmers, hundreds of software programs
                     would also have to be rewritten to make them compatible with newer
                     computer operating systems.

                                          Completion of Safety Studies

                     Our audit also disclosed that Nevada has not fully updated its nuclear
                     explosives procedures and activities to incorporate enhanced nuclear
                     safety requirements issued in Fiscal Year 2001. Department orders
                     require such studies for nuclear facilities and operations in order to
                     provide a comprehensive safety program for nuclear explosive
                     operations and associated activities and facilities. Nevada has
                     identified six areas that make up its Nuclear Explosive Safety Study to
                     be conducted to enhance readiness. For the six areas, Nevada has
                     completed two master studies, started a third one, requested an
                     extension to May 2004 for another, and delayed the start of the
                     remaining two.

                     According to Nevada and its contractor, most of these studies could
                     take from 12 to 18 months to complete. One review showed that all six
                     areas could be included in one large study, but it would take 28 months
                     and $19.2 million to complete. Furthermore, this model calls for
                     additional staffing and it is uncertain whether the time needed to hire
                     the necessary personnel was included in the 28 months.

Test Readiness       Nevada's order on Underground Nuclear Testing describes the Test
Program              Readiness Program. In addition to providing policy and direction for
                     conducting this program, the order requires Nevada to be able to
                     maintain or reconstitute the personnel, equipment, infrastructure,
                     procedures, and authorization basis necessary to conduct a short series
                     of underground nuclear tests within 24 to 36 months of a Presidential
                     authorization.

Readiness Planning   The ability to test within the prescribed timeframe was made even more
                     challenging because the NNSA did not have a comprehensive plan or
                     methodology in place to address its most significant test-related
                     concerns. Specifically, plans were insufficient to fill key and critical
                     positions; validate aging assets; incorporate technology advances; and,
                     update Nuclear Explosive Safety Studies. In addition, Nevada has not
                     fully used its Decision Support System computer model to simulate
                     tests as they might be conducted in the current environment.

Page 4                                                                     Details of Finding
                         Nevada's Fiscal Year 2001 Test Readiness Report indicated that
                         approximately 400 key and critical positions would need to be filled if
                         a test must be conducted. Nonetheless, as indicated above, we found
                         that Nevada does not have the correct skill mix to fill all of these key
                         and critical positions. Since the Department does not have a current
                         need to test, it is understandable that it is not maintaining a larger staff
                         than currently needed. However, the absence of a plan to identify the
                         critical skill mix needed, the positions currently vacant, and the
                         planned methodology for hiring or training experienced individuals
                         should the need arise is, in our judgment, a critical concern.

                         Additionally, a process had not been developed for validating the
                         aging equipment, inventories, and facilities that had been set aside for
                         the test readiness program. It is unknown which physical assets will
                         be able to be reused, which will need to be repaired or replaced, or
                         which manufacturers will be able to supply such assets. In fact,
                         Nevada noted in a 1997 report that crucial diagnostics systems and
                         equipment were not being maintained, technologies were not being
                         modernized, and other equipment had reached its shelf life limit. The
                         report's authors concluded it is likely that physical asset deficiencies
                         will add to the cost of conducting an underground nuclear test.

                         Nevada also does not have an adequate plan for completing its nuclear
                         safety studies. It has not set out a timeline for predicting how long it
                         will take to complete the necessary studies, how each study will flow
                         into the next, and how to proceed if tests are called for before the
                         studies are complete. According to personnel in Nevada, the new
                         safety requirements will also extend the time required to do many
                         tasks. For example, in the past, an individual may have worked 48
                         hours straight on a particular task. Now, since that type of effort is not
                         permitted due to safety concerns, that task would take longer or require
                         more staff.

                         In lieu of exercising all facets of underground testing, Nevada relies on
                         the Decision Support System, a computer simulation of underground
                         testing designed to determine if readiness has been maintained.
                         Without a comprehensive plan to outline the steps that need to be
                         accomplished prior to testing in the current environment, the Decision
                         Support System can only simulate how tests were conducted when
                         underground testing ceased in 1992.

Safety and Reliability   For the past decade, the Department has maintained "high confidence"
                         in the safety and reliability of the nuclear weapons stockpile without
                         underground testing. This has been accomplished through the
                         administration of a science-based Stockpile Stewardship Program,

Page 5                                                                           Details of Finding
                  which has been described as one of the most complex, scientific-
                  technical programs in the world. The program, outlined in the Stockpile
                  Stewardship Plan, relies on a robust regime of surveillance and
                  assessment, as well as the construction of advanced experimental
                  facilities that will incorporate state-of-the-art supercomputer
                  technologies and computational capabilities.

                  The Stockpile Stewardship Plan also provides, however, that a return to
                  nuclear testing could be required if a new type of problem were to occur
                  with a weapon or if an accumulation of uncertainties about the stockpile
                  cannot be resolved. Should such a contingency occur, it is clear that an
                  efficient and expeditious return to a state of nuclear testing readiness
                  could be vital to our national interests. If Nevada's testing challenges
                  cannot be overcome, the Department risks losing its ability to ensure
                  weapons reliability in a timely manner through underground testing.


RECOMMENDATIONS   We recommend that the Deputy Administrator for Defense Programs
                  direct Nevada to:

                     1. Establish a methodology to hire or train personnel with
                        appropriate skills to fill key and critical positions, should the
                        need for these individuals arise;

                     2. Develop a plan to validate aging assets and, if necessary,
                        identify potential replacement equipment, the cost of the
                        replacement, and the lead-time necessary to obtain it;

                     3. Prepare generic portions of nuclear explosive safety
                        documentation and create a plan to obtain appropriate
                        authorization basis approval within the required timeline for
                        resuming underground nuclear testing;

                     4. Extend the Decision Support System computer simulation model
                        to incorporate all test organizational units and changes in
                        personnel, equipment, and safety requirements; and,

                     5. Update the Test Readiness Program requirements overcome by
                        recent events in its policy on Underground Nuclear Testing.




Page 6                                              Recommendations and Comments
MANAGEMENT COMMENTS   In a response to our draft report, which is included as Appendix 1, the
                      Deputy Administrator for Defense Programs, NNSA, expressed
                      general agreement with the findings regarding the status of readiness.

                      According to the Deputy Administrator, NNSA will use increased
                      budgetary authority to recruit and train vital personnel and will
                      develop a plan for execution of the Nuclear Explosives Safety Studies.
                      These planned corrective actions are responsive to Recommendations
                      1 and 3. NNSA did not concur with Recommendations 2 and 4 and
                      did not specifically address Recommendation 5.

                      The Deputy Administrator also provided a number of comments
                      intended to clarify various issues raised in our report. Those
                      comments, along with our responses, are summarized as follows.

                      Management Comment

                      NNSA expressed concern about our conclusion that the Department's
                      ability to ensure weapons safety or reliability is at risk, or may be at
                      some foreseeable time in the future. Management noted that test
                      readiness is maintained as a contingency in the event of an unforeseen
                      future technical surprise in the stockpile. Finally, NNSA is confident
                      that the weapons complex could resume testing on a time scale
                      appropriate to address such a problem.

                      Auditor Comment

                      We noted that the return to underground testing was an option
                      discussed in NNSA's Stockpile Stewardship Plan should a new type of
                      problem occur with a weapon or if an accumulation of uncertainties
                      about the stockpile cannot be resolved. Based on our audit, we
                      concluded that this option is at risk. Furthermore, our conclusion is
                      consistent with observations made by the Nevada Operations Office in
                      its Enhanced Test Readiness Cost Study, dated July 1, 2002. In this
                      study, Nevada concluded that the ability to maintain the current
                      readiness posture within 24-36 months is "at risk" during FYs 2003-
                      2005 at the funding level of $10 million per year, and only with an
                      additional $5 million per year would the current readiness posture be
                      assured.

                      Management Comment

                      Management expressed concern that the audit was focused on Nevada
                      Test Site activities only. The response noted that the technical
                      capabilities to conduct a nuclear test have always resided principally at
                      the weapons laboratories.
Page 7                                                 Recommendations and Comments
         Auditor Comment

         We agree that the technical capabilities to conduct a nuclear test reside
         with the weapons laboratories. However, Nevada and its support
         organizations are responsible for providing more than half of the key
         and critical personnel needed to conduct an underground nuclear test.
         If Nevada cannot provide the correct skill mix to fill the key and
         critical positions to support the weapons laboratories, NNSA is at risk
         of losing its underground nuclear testing capabilities.

         Management Comment

         Management did not concur with our recommendation to develop a
         plan to validate aging assets and, if necessary, identify potential
         replacement equipment, the cost of the replacement, and the lead-time
         necessary to obtain it. NNSA believes that other stockpile stewardship
         experiments allow it to be in a position to deploy the best technology
         available should NNSA have to conduct a test at some future time.
         While there is some equipment that is appropriate to obtain in advance,
         NNSA believes such preparations would be expensive and contribute
         little to readiness absent the direction to prepare for a specific test or
         type of test.

         Auditor Comment

         We agree that NNSA should not acquire or develop equipment without
         a need for a specific test. However, Nevada has over 30,000 pieces of
         diagnostics equipment, about 600 pieces of heavy equipment, and over
         1,600 materials for test readiness that it has kept in warehouses and
         equipment yards. Based on our analysis of equipment and facilities
         listings and interviews with key and critical personnel, most of the
         equipment and materials are obsolete and replacements cannot be
         obtained. We believe that Nevada needs to periodically validate this
         equipment and materials to see what would be used and what would
         need to be replaced. Without knowing how much of the equipment
         needs to be replaced and the potential cost of replacing it, Nevada
         cannot thoroughly evaluate its readiness posture.

         Management Comment

         NNSA also commented that our statement that Nevada has not kept
         pace with the advances made in technology is factually incorrect.



Page 8                                     Recommendations and Comments
         Auditor Comment

         As described in the report, we found several examples of computers,
         software, and other equipment that were not compatible with today's
         technology. Furthermore, Nevada stated in its Enhanced Test
         Readiness Cost Study, dated July 1, 2002, that facilities and equipment
         were affected by the "persistent march of time." Specifically, the cost
         study stated that support of any test readiness posture requires
         enhancing the technical base in a number of areas, most importantly the
         development, engineering, calibration, and testing of advanced
         diagnostic systems. In addition, the report stated that while there was
         confidence that many of the facilities and equipment could be
         reconstituted or replaced within a 36-month lead-time, there is less
         confidence in that option as the time since the last use is extended.
         Certainly, facilities and equipment used for stockpile stewardship are
         maintained and replaced as needed. However, there are some facilities
         and equipment unique to underground nuclear testing that will require
         attention.

         We also noted that Nevada's report showed that initial funding of $15
         million would be needed to maintain the 2-3 year readiness posture. Of
         that amount, $10 million was needed for replacement or reconstitution
         of facilities and equipment.

         Management Comment

         NNSA disagreed with our recommendation to extend the Decision
         Support System computer simulation model to incorporate all test
         organizational units and changes in personnel, equipment, and safety
         requirements. According to NNSA's comments, the Decision Support
         System does not substitute for any technical or logistic activity that
         must be undertaken in the event a test must be conducted. Furthermore,
         NNSA has not identified the Decision Support System as a critical
         capability, and it would have a lower priority for increased funding than
         the activities currently planned under the enhanced test readiness.

         Auditor Comment

         Nevada's contractor used computer simulations from the Decision
         Support System to demonstrate its ability to support the resumption of
         underground nuclear testing within the required timeframe. However,
         test scenarios were based on how NNSA conducted underground
         nuclear testing in 1992. While the Decision Support System model


Page 9                                     Recommendations and Comments
          allows Nevada's contractor to demonstrate test readiness in the 1992
          test environment, it is not a useful tool to demonstrate the time needed
          to conduct an underground nuclear test in today's environment.

          Management Comment

          In response to our recommendation to update the Test Readiness
          Program requirements overcome by recent events, NNSA commented
          on the test readiness posture of the United States and the roles of
          NNSA, the Departments of Energy and Defense, the Administration,
          and Congress.

          Auditor Comment

          We revised the recommendation to clarify that the recommendation was
          directed towards Nevada. We also noted that NNSA did not
          specifically address this recommendation.




Page 10                                     Recommendations and Comments
Appendix 1




Page 11      Management Comments
Appendix 1 (continued)




Page 12                  Management Comments
Appendix 1 (continued)




Page 13                  Management Comments
Appendix 2

                                       RELATED REPORTS



      • Audit of Nevada's Stockpile and Stewardship Management Program, (WR-L-99-02, April
        1999). The audit found that Bechtel had taken steps to appropriately size the technical and
        support staff and Bechtel key or critical personnel maintained their skills. In addition,
        Bechtel established a biannual training program that consisted of participating in subcritical
        experiments or other experiments or tests performed at the Nevada Test Site or National
        Laboratories, attending classes, and reading applicable material.

      • Stockpile Surveillance Testing (DOE/IG-0528, October 2001). The audit revealed that since at
          least 1996, the Department has not met many of its internally generated milestones for flight
          laboratory and component tests. Without needed test data, the Department's ability to assign
          valid reliability levels to some weapons systems is at risk.

      • The Department of Energy’s Pit Production Project (DOE/IG-0551, April 2002). The audit
        determined that the Department’s ability to produce a certifiable pit in accordance with its
        performance plans is at risk. Without a stockpile-ready pit, NNSA will be unable to conduct the
        destructive surveillance tests used to establish weapon reliability for the annual stockpile
        certification to the President.




Page 14                                                                                   Related Reports
Appendix 3
SCOPE         The audit was performed from September 2001, to July 2002, at the
              NNSA Headquarters in Washington, DC; the Nevada Operations
              Office; Bechtel Nevada; the National Oceanic and Atmospheric
              Administration Air Resources Laboratory; Wackenhut Services Inc; and
              at the Nevada Test Site. We limited our scope to Nevada and its
              support organizations as identified above.


METHODOLOGY   To accomplish the audit objective, we:

                 •   Interviewed personnel and retirees from NNSA, Nevada, and its
                     support organizations including randomly selected key and
                     critical personnel;

                 •   Observed underground nuclear testing equipment and
                     inventories stored at various Nevada Test Site locations and the
                     North Las Vegas Facility;

                 •   Visited facilities at the Nevada Test Site and North Las Vegas
                     Facility;

                 •   Reviewed policies, procedures, and other documents related to
                     the Test Readiness Program; and,

                 •   Reviewed Test Readiness Completion Reports for Fiscal Years
                     1998, 1999, 2000, and 2001.

              We conducted the audit according to generally accepted Government
              auditing standards for performance audits and included tests of internal
              controls and compliance with laws and regulations to the extent
              necessary to satisfy the audit objective. Accordingly, we assessed
              internal controls with regard to Nevada's Test Readiness Program.
              Additionally, we assessed internal controls and performance measures
              established under the Government Performance and Results Act of 1993
              and determined that Nevada has a specific performance measure for
              maintaining readiness. Because our review was limited, it would not
              necessarily have disclosed all internal control deficiencies that may
              have existed at the time of our audit. We did not rely on information
              processed on automated data processing equipment to accomplish our
              audit objectives.

              An exit conference was held on August 7, 2002, with officials from
              NNSA Defense Programs at Headquarters and Nevada Operations
              Office.


Page 15                                                   Scope and Methodology
                                                                             IG Report No. : DOE/IG-0566

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
